U.S. Department of Justice
United States Attorney
Western District of Washington
700 Stewart Street, Suite 5220 Tel:  (206) 553-7970
Seattle, Washington 98101-1271Fax: (206) 553-0882
FOR IMMEDIATE RELEASE
May 22, 2007
SEATTLE MAN PLEADS GUILTY TO FALSIFYING BANK RECORDS
Mislead Auditors about Financial Health of Loan Customer
RORY J. OFLAHERTY, 41, of Seattle, Washington, pleaded guilty today in U.S. District Court in Seattle to Making False Entries in Bank Records.  OFLAHERTY, a former senior executive officer and division manager at Banner Bank in Woodinville, Washington admits he placed false documents in the loan file of one of the banks customers.  At sentencing, scheduled for September 7, 2007, in front of U.S. District Judge Ricardo Martinez, the prosecution will recommend a sentence of a year and a day in federal prison.
According to the plea agreement, OFLAHERTY was employed at Banner Bank and its predecessor bank from 1994 to 2001.  OFLAHERTY oversaw bank loans to Baycrest Industries, Inc.  Shortly before the banks internal credit examination in 2001, OFLAHERTY placed fictitious statements in the loan file.  One statement indicated that the brother-in-law of one of Baycrests principals had offered a guarantee of $600,000.  OFLAHERTY also placed a brokerage statement in the loan file indicating that the man who had offered the guarantee had an account value of more than $3.2 million.  These false documents were intended to deceive the bank and reassure auditors that the loan was sound.
This case was investigated by the FDIC Office of Inspector General, Investigations and the FBI.  The case is being prosecuted by Assistant United States Attorney J. Tate London.
For additional information please contact Emily Langlie, Public Affairs Officer for the United States Attorneys Office, at (206) 553-4110.
Last Updated 5/24/07
contact the OIG